<html>
<title> - THAILAND: A DEMOCRACY IN PERIL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                     THAILAND: A DEMOCRACY IN PERIL

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2014

                               __________

                           Serial No. 113-191

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-457 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
                                     WILLIAM KEATING, Massachusetts

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Scot Marciel, Principal Deputy Assistant Secretary, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of 
  State..........................................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Scot Marciel: Prepared statement...................     8

                                APPENDIX

Hearing notice...................................................    24
Hearing minutes..................................................    25
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    26
Written responses from the Honorable Scot Marciel to questions 
  submitted for the record by the Honorable Steve Chabot, a 
  Representative in Congress from the State of Ohio, and 
  chairman, Subcommittee on Asia and the Pacific.................    28

 
                     THAILAND: A DEMOCRACY IN PERIL

                              ----------                              


                         TUESDAY, JUNE 24, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Steve 
Chabot (chairman of the subcommittee) presiding.
    Mr. Chabot. The subcommittee will come to order.
    Good afternoon and welcome to this afternoon's subcommittee 
hearing. I want to thank the gentleman from California, Mr. 
Bera, for serving as today's ranking member and also thank our 
distinguished witness, Principal Deputy Assistant Secretary 
Scot Marciel, for being here. For reasons beyond our control we 
had to reschedule today's hearing from last week, so I 
appreciate your flexibility. While the Department of Defense 
was previously scheduled to also testify, they rescinded their 
participation and were no longer able to join the panel, which 
is unfortunate. Mr. Marciel, I hope you will be able to address 
some of their perspectives on the situation in Thailand and the 
responses to the coup in their absence to the best of your 
ability. I note the nodding of your head that indicates you 
will be able to do that and we thank you for that.
    Today's hearing was called to examine the implications of 
the Royal Thai Army's coup d'etat on Thailand's alliance with 
the United States and to assess the administration's responses 
to the junta's seizure of power.
    Over the past year or so, we have witnessed Thailand 
descend into a state of complete political impasse. Since late 
last year, protests of up to 200,000 people immobilized 
Bangkok, challenging the government's right to rule; the 
February 2014 elections were boycotted by the opposition 
Democratic Party and Thailand's Constitutional Court declared 
them null and void; Prime Minister Yingluck was forced out of 
office on corruption charges and faces impeachment by the 
Senate; and finally on May 20th the Royal Thai Army declared 
martial law and formally took control of the country on May 
22nd.
    Almost immediately, the junta suspended Thailand's 
Constitution, imposed a nationwide curfew, blocked 
international media, banned public gatherings of more than five 
people, detained journalists and academics, arrested political 
leaders, shut down nearly 3,000 local radio stations, and 
censored over 300 Web pages. While the curfew has since been 
lifted, restrictions on media remain in place, some activists 
still remain in detention, and civil society is living under a 
dark shadow fearing reprisal by the junta, which has issued 
harsh warnings against all political activities or public 
comments seen threatening to the monarchy or the junta's 
control.
    The latest coup is Thailand's second since 2006 and twelfth 
since 1932. But even amid a series of coups, Thailand has long 
been considered an outpost of democracy and liberal ideas in 
Southeast Asia. Surely, against the likes of Hun Sen's 
dictatorial hand in Cambodia, the long-time junta-controlled 
government in Burma, and the authoritarian communist regimes in 
Vietnam and Laos, this was not so difficult of a status to 
maintain.
    Today, however, former political leaders, activists, and 
workers are fleeing Thailand for Cambodia to escape the 
increasing intolerance of dissent imposed by the junta. Only 1 
year ago, this direction of migration would have been unheard 
of. While this flight of people continues, Thailand faces a 
serious reputational reckoning as the international community 
questions Thailand's status as a beacon of democracy in Asia. 
Its political crisis has already created a sense of unease 
among foreign investors, and because of the instability and 
uncertainty, those investors are running cold.
    The junta claims that seizing power was necessary to save 
Thai democracy's long-term prospects--also what they said 
during the 2006 coup--yet, military junta chief Prayuth Chano-
cha has said there will be no win-win situation following the 
coup and that citizens must temper their expectations. The 
military has one goal, though, which is to decrease the power 
of the Thai Rak Thai Party, whose followers are called the 
``Red Shirts.'' Promulgating a new constitution to reduce the 
power of the political parties in the Parliament, just as it 
did in 2007, and further strengthening the role of military and 
monarchy is likely how the junta will accomplish this. 
Whichever way you cut it, Thailand's democracy is in peril.
    The United States and Thailand have been allies since 1954 
and friends for 180 years, but this latest coup raises a myriad 
of challenges for the alliance. Thailand serves as a regional 
operational platform for over 50 U.S. Government agencies, and 
acts as an anchor for a multitude of U.S. regional security 
initiatives. According to U.S. law, though, any country whose 
duly elected government is deposed by military coup is 
prohibited from receiving any direct foreign assistance until a 
new democratically elected government has taken office.
    The actions taken by the State Department immediately 
following the coup, which included suspending an estimated 
$10.5 million in foreign assistance to Thailand for Fiscal Year 
2014, and the Defense Department's suspension of two bilateral 
military exercises and high-level official visits scheduled 
this month, were appropriate. However, there are estimations 
that this coup could last for up to 2 years. The 
administration's actions thus far only impose penalties through 
September--the end of the 2014 Fiscal Year.
    Thailand's military is a regular recipient of FMF and IMET 
assistance, totaling about $8 million for the past 3 years. But 
over the course of the last few decades, the U.S. has spent 
millions promoting good governance through democracy and rule 
of law activities in Thailand. With so much invested in 
training and empowering the Thai military, I have to question 
the effectiveness of this assistance and whether it has had any 
real impact on encouraging democratic values within the Thai 
military itself.
    I hope, Mr. Marciel, you can discuss the administration's 
long-term plans regarding additional restrictions that may be 
put in place while the junta remains in power, and how the 
administration will reformat its aid programs in Thailand to 
support true democratic forces within the country.
    Finally, while I understand that imposing restrictions or 
suspending certain activities raises fears of damaging 
multilateral relations beyond Thailand, the U.S. must stand by 
its commitment to support the democratic values that millions 
of Thais support, versus the junta's notion of a guided 
democracy that will weed out political party influence. The 
U.S. needs to act with prudence and measure, with 
acknowledgment that bilateral relations cannot proceed as they 
did only a couple months ago until free and fair elections 
allow the people of Thailand to duly elect their leaders.
    I think we all look forward to hearing from our witness 
this afternoon. I would now like to yield to Mr. Bera for his 
opening remarks for 5 minutes.
    Mr. Bera. Thank you, Chairman Chabot, for calling this 
important hearing and, obviously, a very timely hearing and 
thank you to Mr. Marciel for being here.
    For the past 6 years, Thailand has been a crucial ally and 
a longstanding friend. The Thais have been critical partners in 
carrying out many U.S. Government programs in a variety of 
areas such as health care, refugee assistance and defense 
cooperation.
    Nevertheless, I am concerned along with the chairman with 
Thailand's political deadlock, the restriction of freedom of 
the press and assembly and the detention of political leaders 
and journalists.
    As the world's greatest democracy, we must call on the Thai 
military to respect human rights and free speech and to refrain 
from the crackdown of press, protests and arrested people for 
free speech and political beliefs.
    Furthermore, the last decade has proven to be a 
particularly challenging one for Thailand as it has been 
embroiled in a great power struggle between the Red Shirts and 
the Yellow Shirts--two movements with clear fundamental 
socioeconomic differences.
    In 2006, the Prime Minister was accused of corruption and 
was deposed by a military coup. Since then, there have been 
sporadic outbreaks of violence from both sides of the political 
divide.
    In 2011, Thaksin's sister, Yingluck, became Prime Minister 
of Thailand. Last November, thousands of anti-government 
protestors assembled in Bangkok to object to an amnesty bill 
that many believed would allow Thaksin to return from exile 
without facing corruption charges.
    Due to the mounting pressure from the opposition, Prime 
Minister Yingluck announced that elections were going to take 
place in February of this year but she stated that she would 
not step down from her position until the newly elected 
government could take office.
    Unfortunately, the February election results were found to 
be invalid due to the opposition's boycotting of the polls. 
Prime Minister Yingluck remained in power until May 7th when 
the Thailand constitutional court ousted her and several 
officials from office for abuse of power.
    On May 20th, martial law was implemented throughout 
Thailand and on May 22nd the military established Thailand's 
interim government. As a result of Thailand's military 
takeover, the U.S. suspended military training exercises and 
froze $10.5 million in foreign assistance.
    In late May, Army Commander Prayuth, the head of the 
National Council for Peace and Order, stated that he expected 
the interim government to be in charge for at least the next 14 
months or until peace, order and reform is achieved.
    As one of our oldest geopolitical allies, I do hope that 
the Thai military moves quickly to hold free and fair elections 
so they can transition to a peaceful, democratic civilian-led 
government.
    I am also encouraged that Thailand revealed a three-phase 
roadmap last month which is a positive step toward bettering 
the lives of the Thai people and restoring democracy.
    Again, thank you, Chairman Chabot, for holding this 
important discussion where we have an opportunity to review our 
positions and policies on Thailand. I would like to again thank 
Ambassador Marciel for being here and I look forward to his 
testimony. I yield back.
    Mr. Chabot. Thank you very much. The gentleman from 
California, who is also the ranking member of the Terrorism, 
Nonproliferation, and Trade Subcommittee, is recognized for 1 
minute.
    Mr. Sherman. Thank you. Thailand has been our friend for a 
long time. I associate myself with the chair and the ranking 
member. It is a shame to see this division. The Shinawatra 
group might not be the one that I would support if I was a 
citizen of Thailand.
    I am not. We need to support democracy even if a majority 
of the people that we would interact with--the business class, 
the most educated, those in the capital--are wearing yellow 
shirts.
    It is not which group can put the most people on the 
streets in central Bangkok. It is which side can win elections. 
One hopes that some middle ground is found.
    I would like to go to Thailand and see orange shirts on 
everyone. But--and I think we should try to do what we can that 
is appropriate to facilitate that. But ultimately this is a 
case where we need to respect democracy, and I yield back.
    Mr. Chabot. Thank you very much. The gentleman yields back 
and I would now like to turn to the gentleman from California, 
Mr. Rohrabacher, who is the chairman of the Europe, Eurasia, 
and Emerging Threats Subcommittee.
    Mr. Rohrabacher. Thank you very much. It seems like a 
lifetime ago I had spent some time in Vietnam in 1967. I wasn't 
with the military but I was up with the Montagnards in the 
central highlands and I--when I left Vietnam I was very 
disillusioned by the hatred and the murder and the killing and 
the mayhem that I saw going on.
    And I went to Thailand on the way home and there were 
people who were smiling and they were happy people and they 
were an island of tranquility and goodness in the middle of 
bloodletting and despotism that was happening all around them.
    This was true. The stability and happiness and prosperity 
that Thailand has had over the years has always been such a 
blessing that we have all thought we have all rooted for that. 
And it is heartbreaking now for those of us who have always 
considered the Thai people to be brothers and sisters to see 
that island of happiness and stability and good will now 
turning into chaos and negative sentiments and vitriol.
    We would hope that the military does not make the wrong 
decision and stay too long. Perhaps they needed to--we'll find 
out from our witness--whether or not they needed to go in in 
the first place.
    But the worst thing that can happen to Thailand now is if 
the military who came to stop all of this decides that they are 
going to stay and then systematizes and cements this negativity 
into their society.
    So we wish the Thai people success in recapturing the 
positive spirit they once had. Thank you very much.
    Mr. Chabot. Thank you very much. And I would now like to 
introduce our witness panel this afternoon. It is a witness 
panel of one and that is Mr. Scot Marciel, who has served as 
the Principal Deputy Assistant Secretary for the Bureau of East 
Asia and Pacific Affairs since August 2013. Previously, he was 
U.S. Ambassador to the Republic of Indonesia. Prior to that, 
Mr. Marciel served as Deputy Assistant Secretary, East Asia and 
Pacific Bureau, where he was responsible for relations with 
Southeast Asia and was Ambassador for ASEAN Affairs. He has 
been a career member of the Senior Foreign Service since 1985 
during which time he has served in Vietnam, the Philippines, 
Hong Kong, Brazil and Turkey, as well as in the Economic 
Bureau's Office of Monetary Affairs. Mr. Marciel grew up in 
Fremont, California. He is a graduate of the University of 
California at Davis and the Fletcher School of Law and 
Diplomacy. We welcome you here this afternoon.
    I am sure you are familiar with our 5-minute rule and we 
would suggest that since you are one you can expand a little 
bit but if you could keep it close to 5 minutes we would 
appreciate it. Thank you very much. You are recognized for 5 
minutes.

   STATEMENT OF THE HONORABLE SCOT MARCIEL, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Marciel. Chairman Chabot, members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss the recent coup in Thailand.
    Mr. Chairman, last year we celebrated 180 years of friendly 
relations with Thailand, one of our five treaty allies in Asia. 
We have enjoyed very close relations and U.S.-Thai cooperation 
on a wide range of issues has been a extremely good for a long 
time.
    Our militaries engage in bilateral and multilateral 
exercises that provide invaluable opportunities to develop 
relationships and increase coordination and cooperation. For 
many years, Thailand has also been an important partner on 
important humanitarian goals and priorities.
    We enjoy excellent cooperation on health, health research 
and many other issues. In addition, diplomatically Thailand has 
played a constructive role in the Asia Pacific region including 
as a member of ASEAN and APEC.
    The United States is both Thailand's third largest trading 
partner, with more than $37 billion in two-way trade, and its 
third largest investor with more than $13 billion in cumulative 
foreign direct investment.
    Our Embassy in Bangkok is a regional hub for the U.S. 
Government and remains one of our largest missions in Asia. 
Very importantly, we also enjoy extremely close people-to-
people ties with Thailand. So for all these reasons, we care 
deeply about our relationship and about the people of Thailand.
    For many years, we were pleased to see Thailand build 
prosperity and democracy, becoming in many ways a regional 
success story as well as a close partner. Over the past decade, 
however, Thailand has grappled with an internal political 
debate that has divided not only the political class but 
society as a whole.
    Describing this complex debate would take more time than we 
have today, but in the simplest terms it is between the 
supporters and opponents of former Prime Minister Thaksin 
Shinawatra, whose approach to politics and governance made 
him--gave him significant influence but also made him a 
polarizing figure.
    The debate also reflects deeper conflicts between segments 
of society based both on socioeconomic status and on geography 
and these divisions contributed to a coup in 2006 and again, 
unfortunately, last month.
    This latest coup came at the end of 6 months of intense 
political struggle between rival groups that included months-
long demonstrations in the streets of Bangkok. Military leaders 
argued that the coup was necessary to prevent violence, end 
political paralysis and create the conditions for stronger 
democracy.
    Our position during the entire past decade of turbulence 
and specifically during the last 6 months of turmoil has been 
to avoid taking sides in Thailand's internal political 
competition while stressing our support for democratic 
principles and for the bilateral relationship.
    Prior to the coup, we publicly and privately stated our 
opposition to a coup or other extra constitutional actions, 
stressing that the solution in a democracy is to let the people 
select their leaders through elections.
    We consistently communicated that message to Thai officials 
through our Ambassador, visits by senior officials and through 
military channels. When the coup nonetheless took place, we 
immediately criticized it.
    Beginning with Secretary Kerry's statement on May 22, we 
have consistently called for the restoration of civilian rule, 
a return to democracy and full respect for human rights.
    We have told Thai officials that we understood their 
frustration with their longstanding political problems but also 
stressed that coups do not solve these problems but are 
themselves a step backwards.
    Recent events have shown that the current coup is both more 
repressive and likely to last longer than the previous one. The 
ruling military council has summoned, detained and intimidated 
hundreds of political figures, academics, journalists, online 
commentators and peaceful protestors.
    It continues to censor the media and the Internet. The 
military government has said they will appoint an interim 
government by September and has laid out a vague time line for 
elections within approximately 15 months.
    Its stated intention is to reduce conflict and partisanship 
within society, thereby paving the way for a more harmonious 
political environment when civilians return to control. 
Frankly, we do not see how the coup and subsequent repressive 
actions will produce the political compromise and 
reconciliation that Thailand needs.
    Like most Thai, we want Thailand to live up to its 
democratic ideals, strengthen its democratic institutions and 
return to democratic governance. The coup and post-coup 
repression have made it impossible for us to proceed with a 
business as usual approach to Thailand. As required by law, we 
have suspended more than $4.7 million of security-related 
assistance.
    In addition, we have cancelled high-level engagements, 
exercises and a number of training programs with the military 
and police. For example, we have halted a bilateral naval 
exercise that was under way when the coup occurred and 
cancelled an Army exercise scheduled for this month.
    We continue to review other programs and engagements and 
will consider further measures as circumstances warrant. At the 
same time, mindful of our long-term strategic interests, we 
remain committed to maintaining our enduring friendship with 
the Thai people and nation, including the military.
    The challenge we face is to make clear our support for a 
rapid return to democracy and human rights while also working 
to ensure we are able to maintain and strengthen this 
friendship and alliance over the long term.
    After democracy is restored, we fully hope and intend that 
Thailand will continue to be a crucial partner in Asia for many 
decades to come.
    Thank you for inviting me to testify. I look forward to 
trying to answer your questions. Thank you.
    [The prepared statement of Mr. Marciel follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Thank you very much. We appreciate your 
testimony here this afternoon and we will now have members ask 
questions and I will recognize myself for 5 minutes to ask the 
first question.
    Thailand's second coup in a decade has demonstrated what 
seems to be a greater trend emerging in Southeast Asia. 
Democracy is hanging by a thread in Cambodia, Burma, and has 
regressed in Malaysia. It never really existed in Vietnam or 
Laos and it is in peril now in Thailand. In addition, efforts 
to establish a more effective democracy--as the Royal Thai Army 
is attempting under its latest coup--is setting a bad precedent 
and really sending the wrong message. My question is this: Is 
the administration concerned that the deterioration of the 
democratic process in Thailand is doing just that, sending a 
bad precedent for the region, particularly in Burma where the 
military has been reluctant to live up to its reform 
commitments?
    Mr. Marciel. Thank you, Mr. Chairman. Certainly, promoting 
democracy and human rights is a key part of our foreign policy, 
of course, everywhere, and certainly in Southeast Asia.
    So we look at the coup in Thailand primarily bilaterally in 
the impact on Thailand itself. But you are right, also the 
negative example it sends--it sets for the region.
    I guess maybe I am slightly on the more optimistic side but 
I would note that in Southeast Asia over the last 10 to 20 
years I think we have actually seen some significant progress, 
most notably, of course, in Indonesia, which is a free 
democracy and will have its elections very soon. The 
Philippines, in Burma, as you mentioned, there is a lot more--a 
lot of room to go.
    I think there has been some significant progress in recent 
years but, as I said, a huge amount of work still to be done 
and we would rather have positive examples. One other point I 
might highlight, Mr. Chairman, is that it was interesting to me 
to see the regional response to the coup in Thailand.
    I would argue that 10 years ago none of the neighbors in 
ASEAN would have said anything. But in this case, certainly 
Indonesia spoke out and others did as well, expressing concern 
and a hope for a return to normalcy and to stability and I 
think that is a positive sign in the region.
    I don't want to exaggerate it but I think what we are 
seeing is that democracy is more the standard and things like 
coup are less acceptable even in the region than they used to 
be and I think that is a positive sign.
    Mr. Chabot. Thank you. Their military has been largely 
silent about the whereabouts of certain citizens that remain in 
detention. The National Council for Peace and Order, NCPO, 
claims it is only talking with citizens it detains to explain 
to them why the military took over. It also claims most people 
are detained for only a few hours while those with stronger 
political views are detained not more than 7 days. However, 
over the weekend the NCPO revealed that it has kept a Red Shirt 
activist, Ms. Kristuda, in detention for 3 weeks to ``help her 
mediate, restore consciousness and reconsider many things so 
that they can adjust her understanding.''
    Mr. Marciel, can you explain what this means and whether 
the detention of individuals without charges are in accordance 
with international human rights standards? And also even though 
we have not heard of any detainees being harmed or mistreated 
to date, at least that I am aware of, they were all required to 
sign documents saying that they were not harmed, intimidated, 
coerced, misled, tortured or forced to give or commit any 
inappropriate act before they were released? However, I might 
add, a number of people have said they were subject to 
intimidation and an aggressive interrogation and, before 
released, issued direct warnings. Don't these actions betray 
the junta's claims that it is not harming or intimidating 
targeted individuals and does the State Department have any 
idea how many people may still be detained against their will?
    Is it the administration's plan to address this clamp down 
on fundamental freedoms by restricting certain engagement 
activities? So that is a lot to respond to but you have 38 
seconds.
    Mr. Marciel. Thank you, Mr. Chairman.
    We are deeply troubled by the--by the military council's 
actions. They are continuing to summon and detain and 
intimidate political figures, academics, journalists, peaceful 
protestors.
    We have publicly and in our private conversations with 
government authorities have emphasized that, you know, priority 
number one for us is to end this practice of detaining people.
    To be honest, our information is very similar to yours in 
terms of what is happening that we--though we haven't seen 
evidence of physical mistreatment but certainly intimidation 
that is leading a lot of people to choose not to talk.
    This is a problem. I don't know the particular case of Ms. 
Kristuda but we will certainly look into it but----
    Mr. Chabot. If you could look into that we would appreciate 
it.
    Mr. Marciel. Sure.
    Mr. Chabot. Thank you very much. My time has expired. The 
gentleman from California, Mr. Bera, is recognized for 5 
minutes.
    Mr. Bera. Thank you, Chairman Chabot.
    A hundred and eighty years of friendship certainly makes 
Thailand one of our oldest and most reliable friends and, 
certainly, listening to my colleague from California, Mr. 
Rohrabacher, Thailand has in its past represented a bastion of 
stability and peace and certainly, Ambassador Marciel, you 
talked about the people-to-people ties.
    So, certainly, the strong relationship there. So it is a 
very important relationship to the United States and one that 
we would love to get back to as quickly as possible to the 
mutual benefit of both countries.
    Could you expand on why this relationship is so important 
to U.S. interests and what benefits we have seen from the 
relationship?
    Mr. Marciel. Thank you, Congressman. It is a good questions 
and I know Congressman Rohrabacher talked about being there, 
you know, some years ago when it was a bastion and, of course, 
the relationship goes back 180 years. The treaty relationship 
goes back to 1954.
    And we have, over the many years, built up extremely close 
relations and cooperation on a huge range of issues. Of course, 
we have the security alliance where we have worked together in 
many areas including the Vietnam War back in the '60s and early 
'70s.
    We worked very closely with Thailand for many years after 
the war and even since then, dealing with huge refugee outflows 
from neighboring countries. There are still about 140,000 
refugees in Thailand.
    But on other areas we work--do great work doing health 
research together, working on disaster relief. I remember 
flying into Burma in 2008 from a Thai air force base with a 
Thai general to start the process of delivering relief supplies 
to the Burmese after the terrible cyclone that hit there.
    We have had Peace Corps there, thousands of Peace Corps 
volunteers and students. What we have had is we have built up a 
huge amount of trust over the years. The main--you know, the 
Thai are very proud and very nationalistic so they don't 
surrender their sovereignty at all.
    But they have been willing to work with us to fix common 
problems without a lot of bureaucracy and so on, just a very 
practical, pragmatic opportunity, and it has also been, as we 
said earlier, become a huge center for our regional operations.
    We do a lot of our regional assistance out of there just 
because we have very good pragmatic cooperation on a wide range 
of issues. So it is a hugely valuable relationship to us.
    Mr. Bera. And, certainly, an important one for us to get 
back to. But as we have all pointed out, this has been a 
difficult decade for Thailand. You know, when we think about 
how we get back to some normalcy, what are some possible 
scenarios with regards to how long the military rule could last 
in Thailand and, you know, what are some things that we can do 
from our side in the U.S. that informs the junta's decisions to 
move a little bit more swiftly toward conducting elections?
    Mr. Marciel. Well, the military leaders have talked about a 
rough time frame of 15 months. What we have said is that there 
is a couple of steps. First and foremost, we have urged them 
and continue to urge them every day to end the practice of 
detaining people and the censorship.
    So these sorts of things are things that could be done, we 
think, quickly--lift martial law--that would not bring about a 
return to democracy immediately but certainly change the 
environment significantly, and then we think they can move more 
rapidly to elections.
    They have talked about the need for reform. Pretty much 
every government in the world can benefit from some reforms as 
long as the process is inclusive and reflects the will of the 
people.
    So we will continue to urge them and many other countries 
are continuing to urge them to move more rapidly. It is, to be 
honest, very hard to predict, though, how long they are going 
to stay in power at this point.
    Mr. Bera. I have got two quick questions. One, knowing that 
this is tourist season and many Americans will, you know, often 
will go visit Thailand, are there any threats to U.S. citizens 
in this period at this juncture?
    Mr. Marciel. Congressman, this is something, of course, our 
Embassy and we monitor extremely closely. We haven't seen 
threats. We haven't seen things that are really dangerous. We 
did issue a travel notice just making people aware of the 
overall situation but not of specific threats, no.
    Mr. Bera. Okay. And just very briefly, the Thai junta has 
talked about this three-phase roadmap. Do you think you could 
describe, you know, in brief that three--those three phases for 
us?
    Mr. Marciel. Well, they have talked about, first, kind of 
a--I don't remember the term they used but kind of a cooling 
off period to try to reduce the tensions and then a period of 
reform, which has been quite vague, to be very honest.
    We don't know what types of reforms they are talking about, 
the interim government being established this September, which 
we--you know, we don't know much about what that would be.
    It wouldn't be democratically elected, though. It would be 
appointed and then leading to elections roughly a year after 
that. But it is quite vague, to be honest.
    Mr. Bera. Okay.
    Mr. Chabot. Gentleman's time has expired. The gentleman 
from Pennsylvania is recognized for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman, and thank you, Scot, 
for your testimony today. Just wondering how China has 
responded to the events, and with the luxury of hindsight if 
you can speak to how they responded or tried to influence 
Bangkok after the 2006 coup. What were there successes? Are 
there any parallels currently?
    Mr. Marciel. It is a good question, Mr. Congressman. I 
would say that I don't think there is any outside power that 
has undue influence in Thailand, including us or China. I mean, 
these political issues are being dealt with very much on an 
internal basis with Thai decisions.
    So I don't think there is an outside hand, per se. I can't 
really speak for the Chinese Government. I would assume, 
looking at what they are doing around the region, that they are 
doing all they can to build closer relations with all the 
countries and I would assume that goes for Thailand.
    It is a very close trading partner already and right on 
their border. I don't know of anything significant after 2006, 
certainly as a result of the coup that--anything that changed. 
So, again, this is pretty much a domestic driven matter. Again, 
I am hesitant to speak on behalf of the Chinese Government 
where they are. But we are not seeing anything dramatic.
    Mr. Perry. All right then. If they don't move back to a 
representative government within some reasonable time, and I 
don't know what the reasonable time frame and I have never 
visited but I am just trying to gauge through you the sentiment 
of the people, at what point have they had enough?
    Is there a concern--is there any propensity to civil war 
over this or are they going to be satisfied for a fairly long 
period of time? What is a reasonable period of time? Is the 
14--I have read 14 months somewhere as reasonable as the 
expectation people and is that acceptable?
    Mr. Marciel. It is a very good and difficult question, one 
that we are asking ourselves as well. My own view is that the 
Thai people have embraced democracy and while there was no 
doubt much frustration with the political paralysis and 
corruption and all these issues that people have been talking 
about for some time, my strong sense and our strong sense is 
the Thai people very much value their freedoms and their 
democracy.
    So I wouldn't want to put a time on it but I would expect 
that the Thai people over time, if there is not movement toward 
a restoration of civil and political liberties and movement 
toward reasonable elections, that over time there will be more 
and more Thai people who will look for opportunities to express 
their unhappiness.
    Can't really put a time frame on it but I do think the 
majority of Thai people have made clear they want democracy 
and, certainly, that is our view as well.
    Mr. Perry. Is there any concern regarding U.S. policy 
toward other important issues such as the transition in Burma 
or ASEAN's South China Sea diplomacy with China and human 
trafficking in the region? Is there any concern with those 
issues?
    Mr. Marciel. Well, Thailand is an important player on all 
of those issues. Certainly, we have had good cooperation with 
Thailand authorities in terms of support for the reforms in 
Burma.
    They are very active as--within ASEAN they are the dialogue 
partner at this time for China on South China Sea issues. So 
they play an important role. Certainly, on trafficking in 
persons we have a lot of work to do with the Thai in that area.
    It is a little bit early to know what is going to happen 
under this military council. What I can say is that political 
problems over the last decade have sometimes limited Thailand's 
ability to be as active as it normally would.
    But the Foreign Ministry is a very professional group and 
they have actually, generally speaking, continued to be very 
active and constructive and we would hope that that will 
continue going forward.
    Mr. Perry. All right. In the limited time I have, just as a 
narrative and maybe you can comment, it seems, you know, based 
on what I have read and what you have testified so far today is 
that this is the quintessential example of all politics is 
local.
    There is not much we could have done or should have done. 
There is not much we can do. It is going to play itself out and 
seems like at least for the United States interest at this 
point life in Thailand is going to continue on and our 
relationship is going to continue on and they are going to 
figure out where they want to be or not, and in the next period 
of time we are going to sit and observe. That is what I gather 
from this.
    Mr. Marciel. Mr. Congressman, I agree with you that, you 
know, most of the fixing of this problem really has to come 
from the Thai people themselves, like most other countries.
    We have and will continue to urge--and a lot of other 
countries around the world are doing the same--trying to urge 
them to move back toward democracy as quickly as possible. We 
have some small assistance programs that we hope to continue 
under notwithstanding provisions that would allow us to work in 
those areas as well. What I would say is that we will have to 
observe certain things.
    The relationship we want to maintain long term but 
meanwhile, until there is a return to elected government, we 
won't be able to do business as usual. In other words, there 
are certain limitations and restrictions on the relationship 
until democracy is restored.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from California, Mr. Rohrabacher, is recognized 
for 5 minutes.
    Mr. Rohrabacher. Again, for those of us who have--consider 
ourselves friends or even part of the family of--with the Thai 
people it is heartbreaking to see this slide from being a 
positive society into a society where there is such negativity 
and animosity that seems to be springing up among those people 
who I used to think of as the people with smiles.
    And according to your testimony, you are telling us that 
this negative transition is not caused by necessarily ideology 
and we know it is not caused by religious differences like we 
see in other countries where people start killing each other 
like in Northern Ireland and other places.
    But instead you are suggesting it is geography and 
partisanship, and that is very interesting that we have got 
forces at play that are bringing people to this--
democratically-inclined people toward this negative situation.
    In Europe, when you have people who seem to be at conflict 
with one another that--and there doesn't seem to be a major 
ideological split and that it seems more on personality and 
then, as you say, partisanship and geography, there is an 
organization called the OSCE that comes in, as they are now in 
Ukraine to try to help the people there come to an 
understanding of where they are at and how they might get the 
situation reversed and going in a positive direction. Is there 
no OSCE in the Asia Pacific area?
    Mr. Marciel. Mr. Congressman, no, there isn't and, I mean, 
there is ASEAN, which, you know, as I mentioned has raised a 
few questions about this. But it is a very different 
organization than OSCE and the Thai before the coup did not 
seem at all receptive to the idea of outside parties.
    I think there were some high-level U.N. people who looked 
to see if they might be able to engage and help and there was a 
lot of push back from the Thai.
    Mr. Rohrabacher. I would call on the military in Thailand 
now from--as advice from a friend that they call in outside 
people to try to--like you would do if you were having a 
dispute in your family you might want to call someone in to 
help counsel both sides in a positive way because--and the 
military is not capable of that type of reconciliation effort.
    The military knows how to handle violence and they know how 
to use force. They do not know how to make people solve 
problems and be conciliatory toward each other. So I would 
think that establishing some organization like that, like the 
OSCE, in Asia--Asian Pacific would be positive.
    Perhaps in this specific situation we should advise them. 
There must be other organizations that could come in and serve 
in this capacity. In the past, the king has had such a positive 
impact. Has the king's influence now been diminished, that he 
is unable to use this to solve some of this chaos that is going 
on?
    Mr. Marciel. Thank you. First, I would--I would agree with 
you that, as I said in my testimony, we don't see how this 
military, if you will, suppression of partisanship--while 
perhaps it feels good for the moment we don't see how this 
solves the underlying problem and so that is part of our 
argument to the Thai military.
    In terms of who could play a role, there were some outside 
groups that were very quietly behind the scenes trying to 
encourage a dialogue and a deal before the coup.
    In terms of the king and the monarchy, he hasn't been seen 
very much recently and hasn't really spoken publicly to this 
issue. So it is a little bit hard for us to tell exactly, and 
given the tremendous sensitivities and reverence for the king 
in Thailand I wouldn't want to speculate unnecessarily.
    Mr. Rohrabacher. He has helped before and he has stepped in 
in the past to help bring back more stability and a better 
atmosphere in his country and, again, send the military back to 
their job and taking them out of government.
    Let us just note the longer the military stays in the more 
likely it is that corruption and, yes, repression will emerge 
from that type of rule because you have--where you have control 
it does not mean that people will be any more honest unless or 
they would be more likely to do their job well.
    So let us hope that this--the message we send and we are 
sending to the military is let us move on back to democracy as 
soon as we can and be very serious about finding someone to 
help reconcile these personality and regional and geographic 
differences.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. We will go to a second round. Since we don't have too 
many members it won't be a very long round but I recognize 
myself for 5 minutes.
    Mr. Marciel, after the 2006 coup in Thailand, the 
administration then decided not to cancel the annual Cobra Gold 
joint military exercise. The current coup will last at least 15 
months according to the junta leaders, therefore, continuing 
through the spring of 2015 and into the fall. Since the Cobra 
Gold exercise takes place that spring, does the administration 
intend to suspend Thailand's participation in the Cobra Gold 
military exercise and couldn't its location be moved out of 
Thailand, for example, to Australia where we have rotational 
troops in Darwin?
    Mr. Marciel. It is a very good question, Mr. Chairman. The 
short answer is we haven't made a decision on that yet. We are 
certainly looking at it and our ability to go forward with it 
in Thailand. As you mentioned, it is a hugely important 
exercise not only for Thailand and the United States but for 
the region.
    So it is something we are looking at. We have a little bit 
of time to work with and we will certainly be looking at it 
very closely. It will depend partly on what happens on the 
ground there. As to whether it would be something that could be 
moved, I would--if my military or DoD colleague were here I 
would defer to them. I would maybe take that question if I 
could.
    Mr. Chabot. Sure. Yes, that is understandable and I would 
just make the point in following up you indicated you are not 
sure at this point whether we will or we won't. But assuming 
that perhaps they come to the decision to move ahead with it, I 
would just make the point that in light of the repressive 
nature of the current coup and the restrictions that are 
imposed by our own law, I think an argument could be made that 
the U.S. cannot justify Thailand's participation. Wouldn't it 
send the message to other nations that, irrespective of whether 
a military or civilian government controls that particular 
country the U.S. will still engage with their military?
    I think it could, clearly, send the wrong message if we 
allowed them to participate in Cobra Gold and I would just pass 
that thinking along to the administration for their 
consideration. I assume you will make sure that happen, 
correct?
    Mr. Marciel. I will, Mr. Chairman.
    Mr. Chabot. Thank you. Thank you very much. On Friday, the 
State Department released its 2014 Trafficking in Persons 
report, which downgraded Thailand from Tier 2 watch list to 
Tier 3 for its failure to appropriately fight human trafficking 
in the sex industry, in the seafood industry, and in the 
garment industry. Being designated to this black list with the 
likes of North Korea and Iran and Syria and Russia comes 
certain diplomatic and economic penalties in addition to the 
penalties dictated under law for the coup itself. Pursuant to 
the Victims of Trafficking and Violence Protection Act of 2000, 
countries on Tier 3 are subject to certain restrictions on 
bilateral assistance such as nonhumanitarian and nontrade-
related foreign assistance. These countries may also lose 
access to IMF and World Bank assistance, for example. Would you 
discuss what penalties could be imposed on Thailand for this 
downgrade in addition to restrictions being made in response to 
the coup itself?
    Mr. Marciel. Yes, Mr. Chairman. As you mentioned, Thailand 
was downgraded to Tier 3. Countries placed on Tier 3 on 
trafficking in persons could be subject to certain restrictions 
of nonhumanitarian, nontrade-related U.S. Government assistance 
and multilateral voting.
    These restrictions, if applied, would take effect at the 
start of Fiscal Year '15. Humanitarian, trade-related and 
certain types of development assistance are not affected by 
these restrictions and the President may waive some or all of 
these restrictions if he determines that the affected 
assistance would ``promote the purposes of the Trafficking 
Victims Protection Act of 2000 or is otherwise in the national 
interest of the United States.''
    There has been no--since this decision to downgrade was 
just made we have not yet addressed that question of a possible 
waiver.
    Mr. Chabot. Before I ask my final question--because my time 
is rapidly terminating here--I would just make a point that I 
think it is crazy how we do that all the time. We give all 
these restrictions and then we let the President waive them all 
if he says that would be against the best interests of the 
United States more or less. And so the restrictions are really 
not restrictions at all, and that is the way Congress does 
business, which I think is quite foolish. I will give myself 1 
additional minute here so I can ask the final question.
    More recent attention has been given to human trafficking 
and especially in Thailand's seafood industry. For example, 
Thai officials are said to have been complicit in selling 
Rohingya Muslims, who are fleeing Burma, into servitude on 
fishing boats. In fact, personnel from the Thai Navy itself 
were implicated in these charges. Why is Thailand not doing 
more to address trafficking of these migrant workers and what 
is our administration doing to see that they do?
    Mr. Marciel. Thank you, Mr. Chairman. We agree that one of 
the primary reasons that Thailand was downgraded was over 
concerns about the lack of action by the Thai Government to 
deal with the problem of trafficking in persons related to the 
seafood fishing industry.
    For several years now we and others in the international 
community have expressed concern about forced labor of foreign 
migrants in the Thai fishing and on-land seafood industries.
    This is something we talk to the Thai about continually. We 
did before the coup. We will continue to do after the coup.
    I would say overall that the Thai Government is more aware 
of the overall trafficking in persons problem than in the past 
and taking some steps but we think, given the scale of the 
problem, not doing enough and we are specifically asking them 
to focus on the seafood industry and will continue to do so.
    Mr. Chabot. Thank you very much, and I will just conclude 
my question by making a point. I would like to reiterate what 
Mr. Rohrabacher said, that I think the United States has always 
viewed Thailand as a very strong ally, a wonderful country who 
is going through some tough times right now. And the criticism 
that might be heard in Thailand about their country is 
criticism directed at the instability in the government and, in 
some measure, the unhappiness with the junta and some of their 
restrictive behavior. Although it probably pales in comparison 
to some other countries who have been much harsher on their 
population. Nonetheless, we expect more from Thailand because 
they are such a wonderful country and we hope that they will in 
the very near future be in that category again. I think that 
concludes our testimony and we want to thank you very much, Mr. 
Marciel, for your testimony here this afternoon. I would ask 
unanimous consent that all members will have 5 legislative days 
to submit any questions in writing or to supplement their 
testimony.
    And if there is no further business to come before the 
committee, we are adjourned.
    Thank you very much.
    [Whereupon, at 3:38 p.m., the committee was adjourned.]










                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
